No.

IN THE
SUPREME COURT OF THE UNITED STATES

Shahram- Shakouri

— PETITIONER

(Your Name)
vs.
Bobby Lumpkin

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Fifth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Shahram Shakouri, TDCJ-ID No. 01558021
(Your Name)
1525 F.M. 766
(Address)
Cuero, Texas 77954
(City, State, Zip Code)

(361) 275-2075 Ext. 1233
(Phone Number)

QUESTION(S) PRESENTED
1.

The Texas Court of Criminal Appeals [TCCA] in several opinions

has observed that, "Even unknowing use of false testimony violates
a defendants's due process rights." See Ex Parte Chavez, 371 S.W.
3d 200; Ex Parte Chabot, 300 S.W. 3d 768; and Ex Parte Robbins, 360
S.W. 3d 446. Considering Texas Highest Criminal Court’s opinion that
even unknowing use of false testimony to obtain a conviction, vio­
lates a defendant's due process rights, the questions presented are:
(a) Whether the district court erred to deny relief by reliance
on the Fifth Circuit ruling in Kinsel v. Cain, 647 F. 3d
265, 272 that "because prosecution did not know that vic­
tim's statements were false. Petitioner failt to demon­
strate a due process violation";
(b) Whether the district court was authorized to substitute its
own interpretation of the State law for that of the Court of
Criminal Appeals? Or to contest a well-settled State law? In
Schad v. Arizona, 111 S.Ct. 2491, this Court held:

"Supreme

Court is not free to substitute its own interpretation of
state statutes for those of state's courts";
(c) Whether the State Court's interpretation of State law was
binding on the federal district court? In Bradshaw v. Richey,
126 S.Ct. 603, this Court observed:

"A state court's inter­

pretation of state law...binds a federal court sitting in
habeas corpus";
(d) Whether the Fifth Circuit's decision in Kinsel v. Cain, supra
is even applicable to Texas cases where it conflicts with
the Texas Highest Criminal Court's precedents on unknowing
use of false testimony; and
i

(e) Whether the lower courts created a question of law on un­
knowing use of false testimony in Texas which requires legal
clarity from this Gourt ?oSee'"R-ule _1G. In other words

in which

manner should the Texas courts resolve the issue of unknowing use of false testimony in the future? Should the courts
decide the issue in accordance with the interpretation of the
T.C.C.A. that even unknowing use of false testimony violates
a defendant's due process rights? Or should the courts adopt
the Fifth Circuit's approach that it does not?
The Supreme Court has clearly established that "prosecution's
2.
suppression of evidence favorable to an accused upon request violates
due process where the evidence is material either to guilt or punishment." Brady v. Maryland, 373 U.S. 83. This Court has further held,
"Government's failure to assist defense by disclosing information that
might have been helpful in conducting cross-examination amounts to
constitutional violation." U.S. v. Bagley, 105 S.Ct. 3375.
In the present case, the post-trial discoveries have established
that the prosecution willfully refused to disclose to defense two key
witnesses whose testimonies tend to negate the guilt of Petitioner.
Considering the foregoing, the questions presented are:
(a) Whether "the prosecution is guilty of misconduct when he de­
liberately suppresses evidence that is clearly relevant and
favorable to the defense, regardless once again, whether the
evidence relates directly to testimony given in the course of
governments case?" See Agurs, 427 U.S. at 121; and
(b) Whether the State's suppression of favorable evidence that iml

peaches the credibility of a government witness whose testi­
mony may well be determinative of guilt or innocence is rev­
ersible error under Brady? See Giglio v. U.S.
ii

92 S.Ct. 763.

3. Neither the district court, nor the Fifth Circuit addressed the
underlying legal question in this case, whether the State had a cons­
titutional obligation to disclose to defense withheld testimonies of
two key witnesses under Brady. In regard to this issue, the questions
presented are:
(a) Whether the district court's refusal to adjudicate Petitioner s Brady claim violated his constitutionally protected
rights under Due Process Clause of the 14th Amendment? Or
conflicts with relevant decisions of this Court. See Rules
of Supreme Court, Rule 10(c);
(b) Whether the exclusion of material witesses had substantial
and injurious effect or influence in determining the jury's
verdict under O'Neal v. McAninch, 513 U.S. at 436;
(c) Whether the suppressed testimonies violated Petitioner's
fundamental rights to present a complete defense under Crane
v. Kentucky, 106 S.Ct. at 2146; or
(d) Whether the violation of Petitioner's rights to present a
complete defense was a structural error under Weaver v.
Massachusetts, 137 S.Ct. 1899 (2017).
4. "A defendant in a federal prosecution has a constitutional right
to a unanimous jury verdict. F.R.Crim.P. 31(a). Unanimity in this con­
text means more than a conclusory agreement that; the defendant has
violated the statute in question; there is a requirement of substant­
ial agreement as to the principle factual elements underlying a spe­
cified offense. A jury in a federal criminal case cannot convict un­
less it unanimously finds that the Government has proved each element."
U.S. v. Gonzalez, 786 F. 3d 714 (9th Cir. 2015)(citing Richardson v.
U.S.

119 S.Ct. 1707. See also Beck v. Alabama, 447 U.S. 625.
Considering this Court's controlling authorities on this issue,

the questions presented are:
(a) Whether the unconstitutional jury charge violated Petitioniii

er's constitutional rights to a unanimous verdict under the
federal law; or
(b) Whether the State's failure to elect on which specific off­
ence it would rely upon for conviction resulted in an erroneous jury charge, and a genuine risk of juror confusion.
5. In his affidavit submitted to the habeas court trial counsel admitted that he did not request a lesser-included instruction because:
"I do not believe we were entitled to a lesser included charge unless
there was some evidence that the offense occured.
Contrary to counsel's admission, the district court erroneously
concluded that "trial counsel failed to request a lesser-included
instruction for strategic reasons." In light of the foregoing, the
questions presented are:
(a) Whether a conviction can be upheld, where the findings of
the federal court is clearly contrary to the record, or m
oppisition to the Supreme Court's precedents in Beck v.
Alabama, 447 U.S. 625, 634 (1980); and Keeble v. United
States, 412 U.S. 205, 208 (1973);
(b) Whether the trial counsel's fundamental misunderstanding of
Texas law with regard to being entitled to a lesser-included
instruction satisfies the requirements of ineffective assistance of counsel under Strickland v. Washington? In Kimmelson
v. Morrison, 106 S.Ct. 2574, this Court held; "A failure to
file a motion to suppress that is based on lack of knowledge
of the rule of evidence, due to counsel's misunderstanding and
ignorance of the law or a failure to conduct adequate investigation, can satisfy Strickland's deficiency prong." and
(c) Whether the district court's application of the Strickland
standard was objectively unreasonable, because counsel's
ignorance of the law in no wise can be a trial strategy.
iv

list

SHAHRAM SHAKOURI
Petitioner,

OF PARTIES

-5892

v.
Department
of Criminal
Justice,
BOBBY LUMPKIN
LUMPKIN, Director,
Direct , Texas
Correcti£nal
Institutions
Division
rorry

Respondent.
RELATED CASES
No. 19-40699
United States Court of Appeals
For The Fifth Circuit

FILED
OCT B 1 2021

Shahram Shakouri
Appellant,
V.

OFFICE OF THE CLERK
SUPREME COURT. U.S.

Bobby Lumpkin
Appellee.

CIVIL ACTION No. 4:15-CV-447

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION

SHAHRAM SHAKOURI
v.
DIRECTOR, TDCJ-CID

v

TABLE OF CONTENTS
PAGE
OPINION BELOW.................................................................... ............................

.1

JURISDICTION, „ . , ......... ............ ......................... ........ ...............

,1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED...................
STATEMENT OF THE CASE.............................................................................
I. Violence Against Women Act,.......................
II. Factual Background......................
III. Procedural History................................................................
REASONS FOR GRANTING THE WRIT................................. .........................
1.
A. Texas Law On Unknowing Use Of False Testimony.........

2
5
... 5
7

B. Federal Law On Unknowing Use Of False Testimony...
C. T.C.C.A.'s Interpretation Of Texas Law Was Binding
On The Fifth Circuit.................................. .............. ..
2.

3.
4.
5.

D. The Ramification Of The Fifth Circuit's Decision. .... e
The Fifth Circuit Did Not Apply The Correct Governing
Legal Principle Of This Court To Resolve The Brady
Question
............... . . , „ ,.............................................
2.1 Petitioner Was Prevented From Presenting A
Complete Defense.

10
17
17
.18
19
20

21
24

The Lower Courts Failed To Address The Brady Claim,
.25
3.1 The Remedy For Brady Violation Is A New Trial....... . .28
Petitioner's Constitutional Right To An Unanimous
Jury Verdict Was Violated.............................................................. . . 30
Contrary To The District Court's Erroneous Findings
Trial Counsel Was Ineffective For Not Requesting A
Less-Included Instruction. .................. ....................................
32
A.
B.

Strategy Cannot Be Based Upon A Misunderstanding
Of The Law .........................................................
The Harm Analysis Employed By The Magistrate Judge
In Reaching Her Conclusion Is Contrary To The Harm
Analysis Required By The United States Supreme
Court........... .......................... .................................. .....................

CONCLUSION

. .34

35
36

vi

table of

authorities cited
PAGE NUMBER

FEDERAL CASES
Albright v. Oliver, 114 S.Ct. 807--------- -

Alcorta v. Texas, 78 S.Ct. 103 (1957)...-Banister v. Davis 140 S.Ct. 1698 (2020)>.
Bank v. Dretke, 124 S.CT. 1256..-Beck v. Alabama, 447 U.S. 625. * — -.......' ‘........
Bradshaw v. Richey, 126 S.Ct. 603....
............
Breakiron v . Horn, 642 F. 3d 126 (3rd Cir. 2011).
Brady v. Maryland, 373 U.S. 83 -------------- ----Browning v. Baker, 875 F. 3d 444 (9th Cir. 2017)
Crane v . Kentucky, 106 S.Ct. 2142•* *■*c.......
Crace v. Herzon, 798 F . 3d 840 (9th Cir. 2015)
Davis v. Alaska, 94 S.Ct. 1105
Estelle v. McGuire, 502 U.S. 62
Gange v. Booker, 606 F . 3d 278 (6th Cir. 2010)
Giglio v. U.S. , 92 S.Ct. 763,
Hardwick v. Crosby, 320 F 3d 1127 (11th Cir. 2003)
Holley
............•••••'....... ***........
Keeble v. United States, 412 U.S. 205 (1973).
Kimmelson v. Morrison, 106 S.Ct. 2574 —
Kinsel v. Cain, 647 F . 3d 265 (5th Cir. 2011)
Kyles v . Whitley, 115 S.Ct. 1555 (1995)
Mooney v. Holohan, 294 U.S. 103. - - -.......... '
Napue v. Illinois, -360 U.S. 264, 269 ■
■
O'Neal v. McAninch, 115 S.Ct. 992 (1995).........’ ***'
Perillo v . Johnson, 79 F.3d 441 (5th Cir. 1996)....
Pierce v. Thaler, 335 Fed.Appx . 784 (5th Cir. 2009)
Ramos v. Louisiana, 140 S.Ct. 1390 (2019)..........
Richards v. Quarterman , 566 F. 3d 553 (5th Cir. 2009)
Richardson v. U.S., 119 S.Ct. 1707.........
Schad v. Arizona, 111 S.Ct. 2491= .•
Santiago v . Arizona, 96 F. Supp. 58 (D.R.R. 2000).
vii

21
,18
15
....................
25
.................iii; iv, 36
..... i, 20
......,-..,.33, 35, 36
ii, 12, 22, 25, 27, 29
22
.........iii, 18, 24
33
. 26
20
25
5.ii, 25
34
.,,.,...,■.30, 31
,.....iv, 33, 36
_______ ____ iv
.tl..,.i, 18, 21
29
-19
19
iii, 14, 18
15
27
32
34
........iii
i, 19, 30
...... . 5

28

Slack v. McDaniel 529 U.S. 473 (2000)...,
Smith v. Cain, 132 S.Ct. 627 (2012)...
Strickland v. Washington, 466 U.S. 668
Strickier v. Greene, 527 U.S. 263 ,
Thomas v. Donnelly, 416 U.S. 643...
Trevino v. Thaler, 133 S,Ct. 1911 (2013) ........

29
iv, 35, 36
... 25, 28
, 25
11
11

U.S. v. Agurs, 427 U.S. 121......
U.S. v. Bagley, 105 S.Ct. 3375..
U.S. v. Brown 865 F.3d 566 (7th Cir. 2017) ..........................
U.S. v . Gonzalez, 786 F. 3d 714 (9th Cir. 2015)
U.S. v . Martinez-Mercado, 888 F. 2d 1489 (5th Cir. 2013)...
Valdez v. Cockrell, 274 F. 3d 941 (5th Cir. 2000).........
Vinyard v . United States, 804 F. 3d 1218 (7th Cir. 2015),.
Weaver v. Massachusettes 137 S.Ct. 1899 (2017)..................
White v. Ryan, 895 F. 3d 641 (9th Cir. 2018).,
Wiggins v. Smith, 539 U.S. 510 (2003)..
Williams v. Taylor, 529 U.S. 402 (2000)

ii, 22, 26
.,.*27, 29
......... iii
.............. 24
....... 14, 15
34
iii, 24
34
. 34
. 30
25

Youngblood v. Virginia, 126 S.Ct. 2188

PAGE NUMBERS
STATE CASES
32

Almanza v. State, 686 S.W. 2d 157 (Tex.Crim.App.1984),.

i, 21, 24
Ex Parte Chabot, 300 S.W. 3d 768 (Tex.Crim.App.2009)...
18
Ex Parte Chaney, 563 S.W. 3d 239 (Tex.Crim.App.2018)..
Ex Parte Chavez, 371 S.W . 3d 200 (Tex.Crim.App.2011)............. .........1?, 21, 29
17
Ex Parte Cruz, 466 S.W. 3d 855 (Tex.Crim.App.2015)................
13
Ex Parte Dawson, 509 S.W. 3d 294 (Tex.Crim.App.2016).............
17
Ex Parte Ghahremani, 332 S.W. 3d 470 (Tex.Crim.App. 2011)..,
29
Ex Parte Miles, 359 S.W. 3d.347 (Tex.Crim.App. 2012).............
i, 17, 21
Ex Parte Robbins, 360 S.W. 3d 446 (Tex.Crim.App.2012)...,,..
...18
Ex Parte Weinstein, 421 S.W. 3d 655 (Tex.Crim.App.2014) ....
..... 25
Diamond v. State, 2020 Tex.Crim.App.LEXIS 405...............
Fransis v . State, 36 S.W. 3d 121 (Tex.Crim.App.2000).
Johnson v. State, 490 S.W. 3d 895 (Tex.Crim.App.2016).
Kim v. State, 2020 Tex.App.LEXIS 2198 (Tex.App.Dallas)
Phillips v. State, 193 S.W. 3d 904 (Tex.Crim.App.2000)
viii

.......

31
26

...... 21
31

Sanchez v. State, 400 S.W . 3d 595 (Tex.Crim.App.2013)
Sanders v. State, 913 S.W . 2d 564 (Tex.Crim.App.1995)........
Shakouri v. State, Tex.App.LEXIS 7064 (Tex.App.Dallas 2010)

24
33
... 11
PAGE NUMBERS

OTHER AUTHORITIES
Fifth Amendment To The United States Constitution........
Sixth Amendment To The United States Constitution.......
Fourteenth Amendment To The United States Constitution
18
28
28
42

U.S.C .
U.S.C.
U.S.C.
U.S.C.

FedTR .'CrimVProcLRule 31............
§ 2253(c)(2).,
§ 2254(d)....
§ 13981

,2
.......2, 26
iii, 2, 17
„..iii, 3
2, 28
3, 13, 30
...... .3, 5
............ 3, 12, 13
.......... .3, 13
4, 11, 12, 13, 23

Tex.Const.Art. V, § 4(b).......
Tex.R.App.Proc. Rule 76,„,;,.
Tex.Code Crim.Proc.Art. 11.07

IX

INDEX TO APPENDICES
EXBIBIT "A" Fifth Circuit's July 12, 2021 Order.
EXHIBIT "B” Fifth Circuit's May 18, 2021 Order
EXHIBIT "C" District Court's Order of Dismissal and Final Judgment; (D.E. 35).
Magistrate Judge; (D.E. 31).
EXHIBIT "D" Report And Recommendation Of The U.S.
To The Report And Recommendation Of The
EXHIBIT "E" Petitioner's Objections
U.S. Magistrate Judge; (D.E. 32).
EXHIBIT "E-l" Affidavit Of Trial Counsel.
EXHIBIT "F" Petitioner's Reply To Respondent's Answer; (D.E. 24).
Seeking Relief From Judgment; (D.E. 38).
EXHIBIT "G" Petitioner's Motion
EXHIBIT "H" Petition For Writ Of Habeas Corpus; (D.E. l).
EXHIBIT "I" Petitioner's Supplemental To Post-Conviction Writ Of Habeas
Corpus; (D.E. 6-3).
EXHIBIT "J" Application For Certificate Of Appealibxlity.
EXHIBIT "K" Petition For Leave To File A Supplemental Brief.
EXHIBIT "L” Objections To The Stated Answer To The Applicant's Writ Of Habeas
Corpus; (D.E. 7-1).
EXHIBIT "M" Mary Todd's Testimony.
EXHIBIT "N" Affidavit Of Mohammad R. Manteghinezhad (M.M.).
EXHIBIT "0" Affidavit Of David L. Hernandez.
EXHIBIT ”PM Petitioner's Direct Appeal To The State Appellate Court.

x

IN THE
SUPREME COURT OF- the united states
PETITION FOR WRIT OF CERTIORARI
that a writ of certiorari issue
Petitioner respectfully prays
to review the judgment below.
OPINIONS BELOW

Stated Court of Appeals appears at
The opinion of the United
Appendix "A11 and "B" to the petition.
court and the Report
The opinion of the United States district
the Magistrate Judge appears at Appendix "C”
and Recommendation of
and "D" to the petition.
whether either opinions have been
Petitioner is not aware
published or not.
JURISDICTION

for the Fifth Circuit DENIED PetiThe U.S. Court of Appeals
. See Exhibit "B".
on May 18, 2021
petition
for
C.O.A.
tioner s
motion for reconsideration. The
out
of
time
Petitioner filed an
file out of time motion for reGRANTED
leave
to
Court
Appellate
motion for reconsideration
the
Court
DENIED
However
consideration.
. See Exhibit "A1'.
on July 12, 2021
Of this Court is invoked under 28 U.S.C.
The jurisdiction
§ 1254(1).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
FIFTH AMENDMENT
No person shall be held to answer for capital or other infamous
crime, unless on a presentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces, or in the militia, when
in actual service in time of war or public danger,nor shall any per­
son be subject for the same offense to be twice put in jeopardy of
life or limb, nor shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty, or pro­
perty, without due process of law; nor shall private property be
taken for public use, without just compensation.
SIXTH AMENDMENT
In all criminal prosecutions the accused shall enjoy the right
to a speedy and public trial, by an impartial jury of the State and
district wherein the crime shall have been committed, which district
shallhave been previously ascertained by law, and to be informed of
the nature and the cause of accusation; to be confronted with the
witnesses against him; to have compulsory process for obtaining wit­
nesses in his favor, and to have the Assistance of Counsel for his
defence.
FOURTEENTH AMENDMENT
Section 1.

All persons born or naturalized in the United States

and subject to the jurisdiction thereof, are citizens of the United
States and of the State wherein they reside. No State shall make or
enforce any law which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law; nor deny
any person within its jurisdiction the equal protection of the law.
28 U.S.C. § 2253(C)(2). A certificate of appealability under
paragraph (l) only if the applicant has made a substantial showing
of the denial of a constitutional right.
2

28 U.S.C. § 2254 (d).

An application for a writ of habeas

corpus on behalf of a person in custody pursuant to the judgment of
a State court shall not be granted with respect to any claim that was
adjudicated on the merits in State court proceedings unless the
adjudication of claim-(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established federal law,
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable de­
termination of the facts in light of the evidence presented
in the State court proceedings.
18 U.S.C.A Fed.R.Crim.Proc. Rule31.
(a) Return. The jury must return its verdict to a judge in open
court. The verdict must be unanimous.
(b) Lesser Offense or Attempt. A defendant may be found guilty of
any of the following:
(1) an offense necessarily included in the offense charged;
(2) an attempt to committ the offense charged; or
(3) an attempt to committ an offense necessarily included in
the offense charged, if the attempt is an offense in its
own rights.
Violence Against Women Act of 1994. 42 U.S.C. § 13981, (a), (b.), (c)
The text of the above Act appears in the petition on page 5.
Texas Constitution Article V, § 4(b) mandates, among other things,
that when the Court considers a case en banc, "five Judges shall
constitute a quorum and the concurrence of five Judges shall
be necessary for a decision."
Texas R. App. Proc. Rule 76. Submission En Banc.
The Court will sit en banc to consider the following types of cases:
(a) direct appeal;
(b) cases of discretionary review;
(c) cases in which leave to .^ile was granted under rule 72;

(d) cases that were docketed under Code of Criminal Procedure
articles 11.07 or 11.071;
(e) certified questions; and
(f) rehearing under Rule 79.
Texas Code of Crim. Proc.Art. 11.07
without death penalty.

Procedure after conviction

Sec. 1. This article establishes the procedures for an applica­
tion for writ of habeas corpus in which the applicant seeks
relief from a felony judgment imposing a penalty other than
death.

it

it

it

4

STATEMENT OF THE CASE
I. Violence Against Women Act.
The Vilence Against Women Act (VAWA) was enacted for the salu­
tary purpose of protecting women who were victims of violent crimes.
Congress enacted the Violence Against Women Act of 1994
(hereinafter "VAWA") as a response to increasing nation­
wide problems with domestic violence, sexual assault, and
other forms of violent crimes against women. In enacting
the statute, Congress specifically invoked its legislative
powers under the Commerce Clause and § 5 of the Fourteenth
Amendment, 42 U.S.C. § 13981(a), and created a federal sub­
stantive right "to be free from crimes of violence motivated
by gender." 42 U.S.C. § 13981(b). Further, Congress provided
victims of these crimes with a private cause of action for
compensatory and punitive damages, injunctive relief and any
other appropriate remedy against any person who commits a
crime of violence motivated by gender. 42 U.S.C. § 13981(b)
& (c). The VAWA's self-stated purpose is "to protect the
civil rights of victims of violence motivated by gender and
to promote public safety, health and activities affecting
interstate commerce by establishing a Federal Civil right
cause of action for victims of crimes of violence motivated
by gender." 42 U.S.C. § 13981(a). Santiago v. Alonso, 96 F.
Supp. 58, 60-61 (D.P.R. 2000).
Nevertheless, despite the salutary purpose of the VAWA, it
created a preserve incentive for immigrants to falsly claim to be
victims of domestic violence in order to obtain legal status in the
United States. Indeed, this is a recognized phenomenon.
Hundreds of Americans say their foreign wives exploited
a section of the VAWA that helps victims of spousal abuse
to remain in the United States even if they exit their
5

marriage. The spurned husbands say their immigrant spouse
have lied to police, judges, and women's shelters in their
efforts to manufacture evidence of abuse.
"A Husband Spurned," State

(Nov 8, 2010) As noted by one former

enforcement agent for ICE, "This is a tough situation. You want to
have the law protect domestice violence victims

yet the law also

creates another vulnerability in our immigration system that is ex­
ploited by fraudsters." "Immigrants preying on Americans with False
Tales of Abuse to stay in U.S., Experts say," Fox News (Sept. 8,
2016)(emphasis added).
At the trial of the instant case, there was, in fact expert testi­
mony provided by Gary Davis, a Texas attorney certified by the Texas
Board of Legal Specialization in Immigration and Naturalization law
that discussed this vulnerability to the system.

Q:

And then what happens when [immigrants] get to this country

and they promptly separate after a few days.
It becomes very difficult for the non-U.S. citizen spouse.
A:
At that point options are limited because when someone has
entered the country under a fiance* visa, they can only become
permanent residents, or technically adjust their status to per­
manent resident, through the marriage relationship that led
to the fiancee visa.
The only alternative to that, that has any reasonable chance
to succeed through the relationship would be if the person were
abused, they could file under the Violence Against Womens Act
for a self-petition. If that self-petition where to be approved,
then the person would be eligible to seek a Green Card without
the sponsorship of the U.S. citizen spouse.
Q: And how hard is that to do to persuade-to go that way? It
would seem like everybody would say that.
6

A. Frankly, it happens quite frequently; but because of pro­
tections and the sensitive nature of the request itself, there
are built into the statute privacy limitations such that the
non-U.S. citizen spouse their-whatever evidence they submit is
taken basically at face value... (RR Vol 203t04)(emphasis added).
II. Factual Background.
The bottom line to this case is simple. Either Afsaneh Marous,
whom Petitioner brought to the U.S. on fiance

visa, was a victim of

violence motivated by gender entitled to VAWA or she, like others
have done, has perpetrated a serious fraud upon the State court in
order to be able to remain in the United States of America and have
a path to citizenship. If it is the latter, Petitioner, albeit un­
knowingly, now assists her in continuing to perpetrate this egregious
fraud on this Honorable Court and the Federal Government.
It is especially noteworthy, that according to the testimony of
Mary Todd, a women s shelter aid at trial, Afsaneh Marous (A.M.) ob­
tained a Green Card sometime in 2008. (RR VI 47-48) and Exhibit "M".
See also (D.E. 24) Reply To Respondent's Answer, Exhibit "F".
A. Afsaneh Marous
Mohammad Manteghinezhad (M.M.), Afsaneh's boyfriend and the State
appointed translator describes Afsaneh Marous as a liar and a selfproclaimed con artist, a women with huge appetite for sex. See. M.M.'s
affidavit; Exhibit "N" at 2.
Mr. Abbas Roshani, A.M.'s first husband in Tehran described her
as a compulsive liar and a prostitute. Mr. Roshani said that A.M.
also falsely accused him of sexual assault, and stole all of his be­
longings, shortly after their marriage. Mr. Roshani's mother, described
her former daughter-in-law as a shameless thief. See Objections To The
7

State's Answer To The Applicant's Writ Of Habeas Corpus (D.E. 7-1)
Exhibit "L" at 21, 25.
A.M.'s former employer in Tehran, Mr. Alipour D.D.S., described
her as a professional thief who stole $5,000.00 from him and he filed
criminal charges against A.M., Id., at 26.
Mr. Piroozneya, A.M.'s former employer in Allen, Texas referred
to her as a very dangerous women who almost destroyed his business
and his marriage. Piroozneya filed a lawsuit against A.M. to recover
some of the damages she had caused.
A.M.'s sister-in-law

Shiva Marous, described her as a serial

liar. Shiva also related to Petitioner that she overheard A.M.s mother
telling her "plant something in his [Petitioner's] house so he can
be arrested." Id., at 33.
Corrbet Hutchinson said A.M. asked him to hack into Petitioner's
computer and place child pronographic pictures on his hard drive to
make sure that he would be arrested and convicted. See Exhibit "0"
at 2, n. 10.
Mrs. Nasrin Abdi, A.M.'s next door neighbor in Tehran, and A.M.'s
confidant described her as a liar and a women with many boyfriends.
See Exhibit "P" at 27.
Mr. Pooya Tajali, a church member who lived in the. same neigh­
borhood as A.M. in Tehran, referred to her as "Jendeh-i-khiabani";
(back-alley-hooker). See Exhibit "L" at 26.
Mr. Musa Sawlehe, A.M.'s former boyfriend in Tehran referred to
her as a prostitute. Id., at 24.
The late Mr. roshani Sr., described his former daughter-in-law
as a "shamless prostitute who wants men just for their money and
sex." Id., at 37.
8

This is the character of the women who falsely accused Peti­
tioner of sexual assault, sent him to prison for 23-years in order
to exit the marriage and not get deported. And these are testimonies
that the jury did not hear due to trial counsel's failure to investigate the case. See also Exhibit "P".
B. Shahram Shakouri
At trial, Petitioner categorically denied ever threatening A.M.
or forcing her to have sex against her will. He claimed that A.M. had
a hidden agenda, that she used him to migrate to the United States to
be with her old boyfriend Reza Shahmohammadi; a dentist in Los Angeles,
California. A.M. contacted Reza, who flew to Dallas, Texas and spent
a few days with A.M. in the Marriot Hotel in 2007. That Reza later
sent emails and test messages to Petitioner asking for $100,000.00
in exchange for dropping the charges. (RR 5: 141-144).
Petitioner further asserted that A.M. had a huge appetite for sex,
as M.M. confirmed in his affidavit, and she often used sex toys on
herself. (RR 85-87). He alleged that contrary to A.M.'s testimony,
she brought several sex toys from Iran which she later planted in
Petitioner's home to be discovered by a subsequent search warrant,
See M.M. s affidavit Exhibit "N" at 2, n. 10.
In his affidavit, M.M. further stated that the flash drive con­
taining pornographic images was planted in Petitioner's laptop bag
by A.M.'s son. Id.
In sum

Petitioner was wrongfully convicted based upon a web of

lies spun by a compulsive liar and planted evidence of a con artist,
who took advantage of VAWA, and Petitioner's kindness and generosity.
9

III. Procedural History
The post-trial discovery of exculpatory evidence in 2014 has
clearly established that Petitioner's State trial in January 2009 was
inundated by false testimony of State's principle witness, manufact­
ured evidence, suppression of impeachment evidence, ineffective assis­
tance [I.A.T.C.] on several plains, prosecutorial misconduct

and

Brady, violations amongst other deficiencies.
The post-trial discoveries furhter demonstrates that the State
willfully suppressed exculpatory evidence which was crucial to the
determination of Petitioner's guilt or innocence. That jury was pre­
cluded from hearing refutable testimonies, and Petitioner was deprived
of his constitutional rights to present a complete defense.
In 2010, prior to discovery of withheld material evidence, Peti­
tioner filed his direct appeal in the Court of Appeals; Fifth District
of Texas. Naturally, the record before the Appellate Court was devoid
of the testimonies of withheld witnesses that Complainant lied to the
lead prosecutor, and to the jury, planted evidence in

Petitioner's

home, confessed to being a con artist, and more. The Appellate Court
hence, was totally unaware that the State obtained a wrogful convic­
tion based entirely on false testimony and tainted evidence. Nor did
the Court know that the government was guilty of Brady violation.
The Court of Appeals, Fifth District of Texas, ultimately denied
relief in large measure because trial counsel was not required and
did not provide an affidavit in response to Petitoine's claim of in­
effective assistance of counsel. The Court held:
Here we do not have an adequate record to review Appellant's
claim of ineffectiveness. The record before us is devoid of
10

evidence from the trial counsel himself.” See Shakouri v. State,
7Ee& ;.App.LEXIS 7064 (Tex.App.Dallas 2010).
In other words

Petitioner's direct appeal fell victim to the def-

ects in the integrity of State's procedural framework. On this isuse,
this Honorable Court in Trevino v. Thaler

133 S.Ct.1911 (2013)

observed:
"Texas did not afford meaningful review of I.A.T.C. claim.
Where a State procedural framework by reason of its design
and operation, made it highly unlikely in a typical case
that a defendant would have a meaningful opportunity to raise
an I.A.T.C. claim on direct appeal." And "Texas procedures
make it nearly impossible for an I.A.T.C. claim to be preented on direct review."
It is abundantly clear from the record that the Appellate Court
did not have sufficient facts for a meaningful review of Petitioner's
direct appeal, or rendition of a just and informed judgment.
The Court of Criminal Appeals denied Petitioner's PDR. So in 2015,
he filed his application for writ of habeas corpus pursuant to art.
11.07 in which he objected to violation of his due process rights
under Brady, and the State reliance of false testimony and manufactured
evidence to obtain a conviction. In support of his claims, he present­
ed the Court with affidavits from two withheld witnesses who had inti­
mate knowledge of the case. One of these affiiantBi.,'.; Mohammad Manteghinezhad or (M.M.) a Persian interpreter, and a State actor helped
the Prosecution to communicate with the Complainant, and to investi­
gate the case.
Although the State acknowledged that M.M. was appointed as an
interpreter by the lead Prosecutor and aided the government in its
investigation and prosecution of this case, nonetheless, the State
11

did not offer any reason(s) as to why it failed to disclose to
defense any information about M.M. or Hutchinson

the other with-.

held witness. In other words, the State failed to explain why it
did not comply with its constitutional obligation to disclose favor­
able evidence to the defense, or to adhere to this Court's clearly
established law under Brady v. Maryland.
The Court of Criminal Appeals denied Petitioner’s 11.07 habeas
application in August of 2015 without a written order. Even though,
the State habeas judge; (l) was different from the trial judge;
(2) did not preside over trial; (3) did not have personal recollec­
tion of the issues before him; and (4) refused to hold an evidentiary
hearing and relied on paper hearing and trial by affidavit.
The T.C.C.A. delcined to order an evidentiary hearing even though
an evidentiary hearing was necessary to consider evidence improperly
excluded from consideration by the State habeas court, which were
material to the legality of Petitioner's confinement. Valdez v.
Cockrell, 274 F. 3d 941 (5th Cir. 2000). The Court further refused to
address the underlying legal question in the case. Whether the nondis­
closure of material witnesses violated Brady.
It is worth noting that Petitioner's 11.07 habeas application was
filed on July 22, 2015. and was denied on August 20, 2015 by a single
judge on recommendation of a staff attorney, when the T.C.C.A. was on
summer recess. Even though the Tex.Code of Crim. Proc. Art. 11.07;
and Tex.Const.Art. V, § 4(b) requires a panel of three judges or the
en banc court to decide the 11.07 habeas applications, Petitoner's
habeas application was denied by a single judge.
12

On this issue, Justice Alcala in Ex Parte Dawson, 509 S.W. 3d
294 observed:
"The instant habeas application is representative of hundreds,
and possibly thousands, of prededurally similar applications
that are being disposed of as if they had been considered by
a quoram of this Court, but in actuality are seen and consid­
ered by only a single judge on this Court... Nothing in the
Texas Constitution or statutes authorizes a single judge on
this Court acting alone to decide habeas applications."
In 2017, Petitioner asked the T.C.C.A to reconsider his habeas
application by a panel of three judges consistent with Justice Alca­
la's opinion in Ex Parte Dawson, and in accordance with Tex.R.App.Proc.
76(d) which requires the Court to sit en banc to consider cases that
were docketed under Code of Criminal Procedure art. 11.07 or 11.071.
As it is evident from

the foregoing facts, Petitioner's appeal

fell victim "to extreme malfunctions in the State criminal justice
system." This is especially true when considering that the State was
guilty of prosecutorial misconduct, fraud on the court, and illegal
search and seizure of Petitioner's email account. See Exhibit "G" at
14-18.
In light of the foregoing, a reasonable fact-finder could infer
that Petitioner s State appellate review did not meet the rudimentary
requirement of full and fair review. As the State courts failed to
reach a reasonable determination of the facts under § 2254(d)(1) & (2).
XV. Federal Review
Petitioner did not receive a fair treatment at the federal level
either. On July 2, 2015, Petitioner filed his § 2254 Petition, followed by his supplemental pleading on December 21
13

2015 in the Eastern

District of Texas-Sherman Division. See Exhibits "J" and "K".
On July 25, 2016, the State responded to Petitioner's § 2254
Petition (D.E. 16). Petitioner filed his reply on November 21, 2016
(D.E. 24). See Exhibit "F". The case then was assigned to the Magis­
trate Judge; Christine A. Nowak for review.
The Magistrate Judge, who was new at the job, heavily relied on
the defective and inadequate finding of the State Appellate Court to
assess the merit(s) of Petitioner's Petition. As it was discussed before

the findings of the State Appellate Court is not entitled to

assumption of correctness, because the Court of Appeals did not have
sufficient facts for a meaningful appellate review in the absence of
withheld testimonies, and a "record devoid of evidence from the trial
counsel himself."
Consequently, the Report And Recommendation of the Magistrate
Judge (D.E. 31); dated August 2, 2018; (1) does not reflect the real
fact of this case; (2) is not supported by the record on Petitioner's
claim of I.A.T.C.; (3) conflicts with this Court's precedents in Brady
v. Maryland, (4) is in direct opposition to well-settled State law on
unknowing use of false testimony; and (5) it does not consider that
"error of federal law [exclusion of material witnesses] had substantial
and injurious effect or influence in determining the jury's verdict.
O'Neal v. McAninch, 513 U.S. 432, 436

115 S.Ct. 992 (1995).

The District Court adopted the Magistrate Judge's Report and Re­
commendation and denied relief. See Exhibit "C". Even though the State
habeas judge was different from the trial judge, and neither the State
nor the federal court held an evidentiary hearing. Instead, both courts
"conducted only a paper hearing," and relied on "trial by affidavit."
14

On this issue, the Fifth Circuit Court held:
"Where judge in habeas Petitioner's capital murder trial was
not the State habeas judge, and the State habeas corpus judge
conducted only a paper hearing, and could not compare the
information presented in various affidavits against the first
hand knowledge of the trial, there was danger of "trial by
affidavit," and findings of fact in State habeas corpus pro­
ceedings were not entitled to presumption of correctness."
Perillo v. Johnson, 79 F. 3d 441, 442 (5th Cir. 1996).
On October 18

2018, 21-days after the district court denied his

§ 2254 Petition, Petitioner filed a motion for relief from the judg­
ment in which he claimed because the State habeas judge was different
from the trial judge, and because neither the State nor the federal
courts accorded him an evidentiary hearing, the findings of fact in
his habeas proceedings were not entitled to presumption of correctness.
Petitioner relied on the Fifth Circuit ruling in Perillo, supra

and

Valdez v. Cockrell, 274 F. 3d 941 (2000). See (D.E. 38) Exhibit "G".
The district court construed the motion as second-or-succesive
petition and the Fifth Circuit affirmed. Notwithstanding that the
motion was filed within 28-days of the entry of judgment, and a Rule
59(e) in nature according to this Court's recent ruling in Banister
v. Davis, 140 S.Ct. 1698 (2020).
However, Petitioner who is unschooled in the art of law, mistak­
enly tabled his motion as Rule 60(b). The State responded to Petition­
er's post-trial motion (D.E. 46), and Petitioner filed a reply
(D.E. 50). The District Court denied Petitioner's post-trial motion
on July 25, 2019; Exhibit "J". He later supplemented his petition for
COA on February 7, 2020; Exhibit "K".
15

On May 18, 2021, the Fifth Circuit denied Petitoner's Applica­
tion for COA; Exhibit "B".

Petitioner then filed an 'Out-of-Time

Motion for Reconsideration' on June 9, 2021. The Fifth Circuit
GRANTED the motion to allow the late filing, but DENIED reconsidera­
tion on July 12, 2021; See Exhibit "A".

^ #v *

16

REASONS FOR GRANTING THE PETITION
1. The United States Court of Appeals For The Fifth Circuit has
entered a decision in conflict with the decisions of the Court of last
resort in Texas. In other words, the Fifth Circuit has decided an im­
portant federal question on the issue of "unknowing use of false testmony" in a way that conflicts with the decisions of the Texas Court of
Criminal Appeals, and with this Court's precedents.
A. Texas Law On Unknowing Use Of False Testimony.
Texas Court of Criminal Appeals has long recognized that "The Due
Process Clause of the 14th Amendment can be violated when the State
uses false testimony to obtain a conviction, regardless of whether it
does it knowing or unknowingly. Ex Parte Ghahremani

332 S.W. 3d 470,

476 (Tex. Crim. App. 2011).
In Ex Parte Chavez

371 S.W. 3d 200 (Tex.Crim.App. 2012) the Court

held: "This Court allows applicants to prevail on due process claims
when the State has unknowingly used false testimony."
In Ex Parte Chabot, 300 S.W. 3d 768 (Tex.Crim.App.2009), the
Court held: "Although the present case involves unknowing, rather than
knowing use of perjured testimony, it saw no reason for subjecting the
two types of errors to different standards of harm." The Court conclu­
ded that, "applicant's due process rights were violated, notwithstand­
ing the absence of the State's knowledge of the perjured testimony at
the time of trial." The Court also agreed that "it was more likely than
not that perjured testimony contributed to the applicant's conviction
and punishment." See also Ex Parte Robbins, 360 S.W.3d 446, 459-60
(Tex.Crim.App.2011); Ex Parte Cruz, 466 S.W.3d 855 (Tex.Crim.App.2015);
17

and Ex Parte Chaney, 563 S.W.3d 239 (Tex. Crirn.App. 2018) .
The Texas law at the time of Petitioner's appeal provided fully
adequate notice that even unknowing use of false testimony violates a
defendant's due process rights. The federal court's failure to resolve
the unknowing use of false testimony on an adequate and independant
state ground consistent with the T.C.C.A.'s opinion in the foregoing
precedents, resulted in violation of Petitioner's due process rights
under the 5th and 14th Amendments to the U.S. Constitution. It further
prevented the courts from recognizing that State's use of false testi­
mony: (1) gave the jury the false impression of truthfulness; (2) "cre­
ated a misleading impression of facts." Alcorta v. Texas, 78 S.Ct. 103
(1957); (3) allowed the State to obtain a conviction based entirely on
materially false testimony. Ex Parte Weinstein

421 S.W. 3d 655 (Tex.

Crirn.App.2014), and (4) violated Petitione's fundamental rights to have
a meaningful opportunity to present a complete defense, "to put before
jury evidence indispensable to the central dispute in a criminal trial."
Crane v. Kentucky, 106 S.Ct. 2142.
In spite of the well-settled State law that even "unknowing" use
of false testimony violates a defendants

due process rights, the Fifth

Circuit affirmed the objectively unreasonable decision of the district
court that "because the prosecution did not know that victim's state­
ments were false. Petitioner fails to demonstrate a due process viola­
tion." In so doing, the Fifth Circuit clearly violated T.C.C.A.'s
jurispredence. See Exhibit "D" at 27.
B. Federal Law On Unknowing Use Of False Testimony..
It is especially noteworthy that the district court relied on the
Fifth Circuit's ruling in Kinsel v. Cain
18

647 F.3d 265, 272 (5th Cir.

2011). The decision of the Fifth Circuit to affirm the contradictory
conclusion of the district court on this issue is clearly in conflict
with the T.C.C.A.'s interpretation of Texas law, and in opposition to
this Court’s opinion on "unknowing" use of false testimony in the
following cases:
In U.S. v. Agurs, 96 S.Ct. 2392, this Court held:
"The Due Process Clause is violated when the government know­
ingly or unknowingly uses false testimony to obtain a conviction.";
In

Napue v. Illinois, 360 U.S. 264, 269, this Court held:

"If the State knew of falsity of evidence but allowed it to
remain without correction, the Court found error. The same re­
sult obtains when the state, although not soliciting false
evidence, allows it to go uncorrected when it appears."; and
In Mooney v. Holohan, 294 U.S. 103, this Court held:
"the State violates a defendant's rights to due process when it
actively or passively uses perjured testimony to obtain a con­
viction."
C. The T.C.C.A.'s Interpretation Of Texas Law Was Binding On Fifth
Circuit.
The pivotal question before the Fifth Circuit was whether the in­
terpretation of State law by T.C.C.A. that even unknowing use of false
testimony violates a defendant’s due process rights was binding on the
district court. On this issue this Court held:
"Supreme Court is not free to substitute its own interpretation
of state statute for those of state's courts. Schad v. Arizona,
111 S.Ct. 2491.
Accordingly, the district court exceeded the limits of its auth­
ority by substituting its own interpretation of state law for those
of T.C.C.A.

19

The decision of lower courts further conflicts with this Court's
ruling in Bradshaw v. Richey, 126 S.Ct. 603, in which this Court held:
"State Court's interpretation of state law., .binds a federal
court sitting in habeas corpus." Citing Estelle v. McGuire,
502 U.S. 62, 76-68.
In sum

no matter which test is applied to determine the validity
of the Fith Circuit's decision on unknowing use of false testimony,
the result is the same . The Fifth Circuit resolved this issue
in a
manner fundamentally inconsistent with clearly
established Texas law.
The decision; (l) conflicts with the T.C.C.A.'s interpretation of
un­
knowing use of false testimony; (2) it is not applicable to Texas cases; and (3) conflicts with this Court’s precedents in the above
cases.
D. The Ramification Of The Fifth Circuit s Decision.
The decision of the Fifth Circuit further created a split on how
the courts in Texas should view the T.C.C.A. s rulings on unknowing
use of false testimony. Or in which manner should the Texas Courts
resolve the issue of unknowing use of false testimony in the future?
Should the courts decide the iissue in accordance with the interpreta­
tion of T.C.C.A. that unknowing use
of false testimony violates a
defendant s due process rights? Or should the
courts adopt the Fifth
Circuit s approach that it does not?
Assuming that some courts choose to adhere to the Fifth Circuit's
precedents. How many Texas defendants will be
wrongfully convicted on
use of false testimony in the future? And how
many prisoners, including Petitioner would have to remain behind bars, because the
prosecu­
tion obtained a conviction based on unknowing use of false
tes timony
in violation of clearly established Texas law?
20

The decision of the Fifth Circuit on this issue has further devided the state courts and the federal court in Texas. The state
courts tend to rely on T.C.C.A.'s opinion on unknowing use of false
testimony, and the federal courts tend to follow the Fifth Circuit's
decision. For instance, in Kim v. State

2020 Tex.App.LEXIS 2198 (Tex.

App. Dallas) the Appellate Court relied on the T.C.C.A.'s opinion in
Ex Parte Chavez, 371 S.W. 3d 200, 207-08 (Tex.Crim.App.2011) , and
Ex Parte Robbins, •

360 S.W. 3d 446, 459 (Tex.Crim.App.2012) to re-

solve the unknowing use of false testimony. While, the federal district
court in this case relied on Kinsel v. Cain, 647 F. 3d 265, 272, (5th
Cir. 2011) to deny relief.
In sum, this Honorable Court should determine which court in Texas
has the authority to interpret Texas Laws, and to decide whether the
unknowing use of false testimony violates a defendant's due process
rights, the Fifth Circuit or the Court of Criminal Appeals of Texas?
In light of the foregoing, Petitioner has identified a substantial
and reasonably debatable constitutional question. He is therefore, entitiled to relief, because "a conviction based on a foundation of per­
jury by the State's chief witness is not allowed to stand." Ex Parte
Chabot, 300 S.W. 3d 768 (Tex.Crim.App.2009). And according to this Court:
"A criminal prosecution based on perjured testimony... simply
does not comport with the requirements of Due Process Clause."
Albright v. Oliver, 114 S.Ct. 807.
2. The Fifth Circuit Did Not Apply The Correct Governing Legal Pricipal Of This Court To Resolve The Brady Question.
As an initial matter, it is undisputable that the government vio­
lated Brady by failing to disclose any information about M.M. and
Hutchinson.
21

M.M., who was appointed by the State as a tranlator for the
Complainant in her daily dealings with the State’s lead prosecutor,
filed an affidavit in 2014 (five years after trial), detailing how
the Complainant committed perjury at trial; and conspired with her son
and planted evidence in Petitioner's home; said nothing but lies; gave
conflicting statements to the prosecutor; lied in the court; lied to
the jury under oath; married Petitioner for the sole purpose of migra­
ting to the United States; confessed to being a con artist who tried
to extort tens of thousands of dollars from M.M. as well.
Additionally, M.M.’s written testimony shows that; (l) he was act­
ing on government’s behalf; (2) had a sexual relationship with the Com­
plainant, who was married to Petitioner at that time; (3) had highly
crucial, exculpatory information that was ’’material” to the "guilt or
punishment” of Petitioner. Brady v. Maryland, 371 U.S. 83.
It is notable, that the State had a legal obligation to disclose
to the defense any evidence implying an agreement or an understanding.
Browning v. Baker, 875 F. 3d 444 (9th Cir. 2017).
Under Brady, prosecutors are responsible for disclosing "evidence
that is both favorable to the accused and material either to guilt or
to punishment. Bagley, 105 S.Ct. 3375. The failure to turn over such
evidence violates due process. Weary v. Cain, 136 S.Ct. 1002, 1006
(2016).
Needless to say that the prosecution did not allow the jury to
hear any of M.M.’s testimony, or that of Hutchinson who was working as
a confidential informant for the government, and disclosed to the de­
fense similar information after trial. See Exhibit ”0".
22

In response to Petitioner's Brady Violation in his writ applica­
tion for habeas corpus pursuant to art. 11.07, the State skillfully avoided answering the fundamental legal question in this case. Why did
the prosecution not disclose to defense any information on the with­
held witnesses in the first place.
Instead of responding to

Petitioner's claim that

had the State

disclosed the suppressed evidence, and allowed the jury to listen to
M.M. and Hutchinson testimonies, there was a strong probability that
at least one juror would have harbored reasonable doubt; the State's
attorneys attacked thier own agent, and claimed that M.M. is not cre­
dible without offering a shred of evidence.
In other words, the State claimed that M.M. was credible as an
interpreter for two years while he was helping the
communicate with the Complainant

prosecution to

and to investigate and prosecute

this case. However, the State arbitrarily decided that M.M. is no long­
er credible because he decided to reveal the truth, and to assist Pet­
itioner to contest his wrongful conviction.
The State's argument is fundamentaly flawed, because if M.M. is
not credible

then the information / interpretation that he provided

to the prosecution prior to trial was not credible. The prosecution
heavily relied on M.M.'s translation to obtain an arrest warrant, and
an indictment, If assuming arguendo that the State is correct and M.M.
is not credible

then the arrest warrant was invalid, the information

provided to the grand jury was not credible

the indictment is void,

and the trial court was without jurisdiction.
Besides, it was not for the State to assess the credibility of
M.M.. The basic question here is: "why did the State not allow the
23

jury to listen to M.M.

s testimony and assess

his credibility? ”Cre-

within the province of the jury."
dibility of the witness, an area
. 1989). See
-Mercado, 888 F.2d 1489-1492 (5th Cir
U.s. V. Martinez
(Tex.Crim.App.2013); and
3d 595, 598
State,
400
S.W.
also Sanchez v.
2142.
Crane v . Kentucky, 106 S.Ct.
consider that the jury
Fifth Circuit neglected to
In sum, the
convicted Petitioner without subs tantial
could not-and would not-have
believing that she was a
reliance on Complainant s false testimony,
that no, rational jury would have
.
Petitioner
argues
truthful witness
about M.M.'s testimony.
truthful had they known
found Complainant
that Brady violation, and jury s
The lower courts
resulted in actual prejudice
ignorance
and a wrongful conviction.
2.1. Petitioner Was Prevented From

Presenting A Complete Defense,

that the government’s failure to
s
affidavit
further
reveals
M.M.
not only violated
about him or Hutchinson
disclose any information
ingful opportunity to present
divested Petitioner from a mean
Brady, but
2142, and deprived
. Kentucky, 106 S.Ct.
a complete defense; Crane v
put before the jury exonerating
his
fundamental
rights
to
him from
evidence.
violation of his right to prePetitioner further argues that the
under Weaver v. Massasent a complete defense was structural error
chusetts, 137 S.Ct. 1899 (2017), and therefore, subject to automata
„vers.l retber th.» harmless

*»*

15 th“

••th. error's effect, ere simply tee herd to ...sore—-King rt el~.t
harmless he­
impossible for the government to she. that tb. error ...
yond a reasonalbe doubt.

ld.
24

"The Supreme Court has repeatedly recognized that the right to
present a complete defense in a criminal proceeding is on of the foun­
dational principles of our adversarial truth-finding process." Gange
v. Booker, 606 F. 3d 278 (6th Cir. 2010).
The undisclosed evidence was vital to Petitioner s defense because he could have used it on cross-examination to impeach portions
of Complainant's testimony, or to get the trial court to exclude her
testimony entirely. Diamond v. State

2020 Tex.Crim.App.LEXIS 405. See

also Youngblood v. Virginia, 126 S.Ct. 2188; and Thomas v. Donnelly,
416 U.S. at 643.
The controlling law of this Court on this issue states:

Evidence

that impeaches the credibility of a government witness whose testimony
may well be determinative of guilt or innocence may not be suppressed."
Giglio v. U.S., 92 S.Ct. 763.
3. The Lower Courts Failed To Address The Brady Claim.
It is especially noteworthy that the district

court refused to

even acknowledge that Petitioner raised a Brady claim much less adjudge the claim, and the Fifth Circuit's unwillingness to correct the
district Court's error

is in direct conflict with this Court s de­

cisions in Brady v. Maryland, 373 U.S. 83; Banks v. Dretke

124 S.Ct.

1256; and Strickler v. Greene, 527 U.S. 263. See Rules of Supreme
Court

Rule 10.
Both federal courts artfully steered away from addressing the

underlying legal question in this case

whether the undisclosed evi-

dence violated Petitioner's rights to due process of law.
The district court's 34-page judgment and the Fifth Circuit's
3-page denial of Petitioner's application for COA is devoid of any
25

meaningful analysis as to whether the nondisclosure of favorable
evidence prejudiced Petitioner's defense.
The lower courts failed to consider the impact of the nondiscloure on the defense preperation

on the strength of State's case, or

on the jury's verdict. In other words, the federal courts failed to
recognized that "the result of the proceeding would have been differeht

absent nondisclosure of material evidence." U.S. v. Bagley, 105

S.Ct. 3375.
More fundamentaly, the lower courts failed to consider that the
nondisclosure of the material witnesses deprived Petitioner from a
meaningful cross-examination of Complainant, in violation of his Sixth
Amendment rights.
The main purpose of the "Confrontation Clause" is to secure the
opportunity

of cross-examination, which is the principle means by

which a witness' believability and the truthfulness of her testimony
are tested. Johnson v. State, 490 S.W. 3d at 909. When the defense
theory is that a witness has a bias or ulterior motive, [like the
present case], jurors are entitled to have the defense's theory before
them so they can make an informed judgment about the weight to give
the witness's testimony. Id.; see also Davis v. Alaska, 94 S.Ct. 1105.
Here, the record is clear that the undisclosed witnesses' [M.M.
and Hutchinson] testimonies could have been used at trial to discredit
the accuracy of Complainant's false testimony, which was a critical
aspect of the State's case. The Sixht Amendment right to cross-exami­
nation allows a party to attack the witness's general credibility or
to show her possible bias, self-interest, or motives in testifying.
Johnson v. State, 490 S.W. 3d 895, 909 (Tex.Crim.App.2016).
26

Had the State not violated Petitioner's due process rights under
Brady, and had disclosed to the defense the two key witnesses who
helped the prosecution to investigate

and prosecute this case, they

could have testified at trial that the State's Star witness, the Compainant, was not a truthfull person. The undisclosed impeachment evidence in this case was especially important "where the government's
case rested entirely on one witness's testimony and credibility."
U.S. v. Brown, 865 F. 3d 566 (7th Cir. 2017).
"The Supreme Court has clarified that Chambers and its progeny do
not stand for the propostition that a defendant is denied a fair opp­
ortunity to defend against the State accusations whenever critical
evidence favorable to him is excluded

but rather that erroneous evi-

dentiary rulings can, in combination, rise to the level of a due process violation.

pierce v. Thaler, 335 Fed.Appx.784 (5th Cir. 2009).

Under the posture of the above precedents Petitioner argues that
the Fifth Circuit's opinion that Petitioner "presented no credible
evidence that State suppressed favorable evidence," without the bene­
fit of an evidentiary hearing is objectively unreasonable, because it
is virtually impossible to arbitrarily dismiss the potential profound
impact of excluded testimonies of Hutchinson

and M.M. on the jurors.

Or to despoticly assume that not even one fairminded jurist would have
voted for acquittal, had the State allowed them to hear the suppressed
testimonies. No fairminded jurist could reach a different conclusion
on this issue.
The pivotal questions before the Fifth Circuit were: Why did the
State (1) not meet its constitutional obligation to disclose evidence
favorable to defense in the first place; (2) not allow the jury to
27

assess the credibility of the excluded witnesses; and (3) not consi­
der that the nondisclosure of material witnesses prejudiced Petition­
er's defense. The Fifth Circuit failed to address any of the above
questions.
In sum, Petitioner alleges that the district court's failure to
properly consider his Brady claim and the Fifth Circuit's reluctants
to rectify the mistaken judgment: First, resulted in substantial den­
ial of his constitutional rights. 28 U.S.C. § 2253(c)(2). Slack v.
McDaniel, 529 U.S. 473, 483 (2000). Second

it created a "grave doubt

about whether [the evidentiary suppression] had substantial and injur­
ious effect or influence in determining the jury's verdict." O'Neal v.
Balcarcel, 933 F. 3d 618 (6th Cir. 2019)(citing McAninch, 513 U.S. at
436 (quoting Brecht, 507 U.S. at 627).
3.1. The Remedy For Brady Violation Is A New Trial.
Petitioner clearly proved by a preponderance of evidence that he
is entitled to post-conviction relief because the decision of the low­
er courts to sidestep his Brady claim conflicts with this Honorable
Court's precedents, and defies the Constitution.
Petitioner demonstrated that (1) the State failed to disclose evi­
dence, regardless of the prosecution's good or bad faith; (2) the
withheld evidence/.was favorable to him; and (3) the evidence was material. Strickler v. Greene, 527 U.S. 263, 281-82.
Petitioner furhter established that M.M. was working on govern­
ment's behalf. Thus, the contents of his post-trial affidavit that
Complainant lied under oath, planted evidence in Petitioner's home to
be discovered by subsequent search warrant etc., was "in the govern­
ment's collective knowledge," thus it was imputable to the prosecution.
28

See U.S. v. Brown, 865 F.3d 566 (7th Cir. 2017); Giglio, 405 U.S. at
154; Ex Parte Chavez

371 S.W. 3d 200, 205 (Tex.Crim.App.2012).

Jurists of reason thus could affirmatively conclude that it is
reasonably probable that the outcome of the trial would have been di­
fferent had the prosecutor made a timely disclosure. Smith v. Cain,
132 S.Ct. 627, 2012, U.S. LEXIS 576 at *5. A reasonable probability of
a different result is accordingly shown when the Government's eviden­
tiary suppression undermines confidence in the outcome of the trial.
Kyles v. Whitley, 115 S.Ct. 1555 (1995).
The remedy for Brady violation is a new trial. Ex Parte Miles
359 S.W. 3d 347, 364 (Tex.Crim.App.2012). Petitioner, thus, is entitled
to relief under Brady. He has identified an error of law in the lower
court's judgment well understood by a reasonable trier of facts.
In light of the preceeding argument, jurists of reason could ar­
guably debate that a "grave doubt" exists as to whether the trial
court's error of federal law; Brady violation, had substantial and in
jurious effect on the jury's verdict, and led to the wrongful convic­
tion of an innocent person.
These jurists of reason could further construe the government's
unknowing use of false testimony as a constitutional error, thus, re­
jecting the Fifth Circuit's conclusion that "innocence claim is not
a basis for habeas relief absent an independent constitutional viola­
tion."
Accordingly, Petitioner is entitled to relief because the adju­
dication of his petition on the merits; (1.) resulted in a decision
that was contrary to, or involved an unreasonable application of,
clearly established federal law, as determined by the Supreme Court of
29

the United States; or (2) resulted in a decision that was based on
an unreasonable determination of the fact in light of the evidence
presented in the state court preceeding. 28 U.S.C.S. § 2254(d). See
Williams, 529 U.S. at 402-03 (2000).
4. Petitioner*s Constitutional Right To An Unanimous Jury Verdict
"Was Violated.
Petitioner objected at trial that the court*s charge at guiltinnocence deprived Petitioner of his right to a unanimous verdict.
(RR7: 252-54; RR8: 183-86). The charge as submitted contained four
separate application paragraphs in the disjunctive and instructed the
jury to find Petitioner guilty if they found any of the four beyond a
reasonable doubt.
The Complainant testified at trial that she was sexually assault­
ed by her husband without her consent for months on multiple occasions
each week. She testified to a variety of separate incidents, involving
separate sexual acts, some by varying degrees of force, some by varying
degrees of threats, and some to which she aquiesced. In regard to the
Due Process right to a unanimouns verdict, the Court of Criminal App­
eals explained:
"An unanimous jury verdict ensures that the jury agrees on the
factual elements underlying an offense--it is more than mere
agreement on a violation of a statute. The unanimity require­
ment is undercut when a jury risks convicting the defendant
on different acts, instead of agreeing on the same act for a
conviction." [citation omitted].
Looking at the Schad v. Arizona, 501 U.S. 624 (1991) opinion, the
Holley Court noted that the two cases entertained different fact­
ual senarios. In Schad, one single killing occured. But in
Holley, [a perjury case] a single count encompassed two or more
30

separate offenses. Because the jury instruction did not require
jurors to agree on the falsity of one particular statement,
the court concluded that "there was a reasonable possibility
that the jury was not unanimous with respect to at least one
statement in each count." Id. at 929.
. '"... Applying the Holley reasoning to the instant case [foot
note omitted], the jury charge given in Petitioner’s case cre­
ated the possibility of a non-unanimous jury verdict. The
breast-touching and the genital touching were two different
offenses, and therefore, should not have been charged in the
disjuctive. By doing so, it is possible that six members con­
victed Petitioner on the breast-touching offense (’while the
other six believed he was innocent of the breast-touching)
and six members convicted Petitioner on the genital-touching
offense (while the other six believed he was innocent of the
genital-touching). Petitioner was entitled to an unanimous
jury verdict, [citation omitted] Hence, the trial court erred
by charging Petitioner in the disjunctive.
Fransis v. State, 36 S.W. 3d 121, 125 (Tex.Grim.App.2000). the
Court has more recently applied the Fransis principle to cases in
which were repeated incidents of the same conduct:
A similar danger arises when a multitude of incidents are pre­
sented to the jury and the State is not required to elect. Six
jurors could convict on the basis of one incident and six
could convict on another (or others). While each of the inci­
dents presented may constitute the commission of a sexual
abuse offense, the jury must agree on one distinct incident
in order to render a unanimous verdict, [emphasis added].
Phillips v. State, 193 S.W. 3d 904, 913 (Tex.Crim.App.2000).
Defense counsel expressed his concern in his objections and argu­
ment, but his concern was insufficient to preserve

Petitioner's con-

titutional right to a unanimous jury verdict where the court's charge
allowed the jurors to find Petitioner guilty based upon a collective
31

"umbrella" agreement regarding the months of alleged abuse.
Because Petitioner objected to the charge at trial, he need only
show "some harm" to prevail, Almanza v. State, 686 S.W. 2d 157, 171
(Tex.Crim.App.1984), but this Court may determine it should analyze
the error as constitutional error under the unaimity requirement of
the Sixth Amendment which requires reversal.
"There can be no question that the Sixth Amendment’s unanimity
requirement applies to state and federal criminal trials equal­
ly...The Sixth Amendment right to a jury trial, as incorporated
against states byway of the Fourteenth Amendment, required a
unanimous verdict to convict a defendant of a serious offense."
Ramos v. Louisiana, 140 S.Ct. 1390 (2019).
Regardless of standard used, the harm in this case was particu­
larly egregious because most, if not all, of the incidents testified
to by Complainant were--at most--second degree sexual assaults or
were not even criminal assault. See Petitioner's Direct Appeal, Ex­
hibit "P" at 39-42.
5. Contrary to the District Court's Erroneous Findings Trial Counsel
was Ineffective for not requesting a Lesser-Included Instruction.
With regard to whether Petitioner's trial counsel was ineffective
for not requesting a jury instruction on the lesser-included offense
of sexual assault

the Magistrate Judge found that trial counsel had

a "strategic reason" for not requesting such an instruction and, in
any event, that Petitioner was not prejudiced by the lack of instruc­
tion because there was "no evidence to demonstrate that

had the jury

been given the instruction, it would have chosen to convict him of
the lesser-included offense." RR at 16-17 Exhibit "D".

32

The Magistrate Judge’s first finding is not supported by the re­
cord. As discussed below, it is clear from the record that the trial
counsel’s failure to request a lesser-included instruction was based
upon his incorrect belief that the defense was not entitled to such an
instruction and not because of ’’strategic” reasons.
With regard to prejudice findings, the case law makes it clear
that Petitioner did not, as the Magistrate Judge concludes, have to
"demonstrate that had the jury been given the instruction, it would
have chosen to convict him of the lesser-included offense.” Indeed,
both state and federal law are clearly to the contrary. See, Beck v.
Alabama, 447 U.S. 625, 634 (1980); Keeble v. United States, 412 U.S.
.205, 208 (1973); Crace v. Herzon, 798 F.3d 840 (9th Cir. 2015);
Breakiron v. Horn

642 F. 3d 126, 136 (3rd Cir. 2011); Sanders v. State

913 S.W. 2d 564, 571 (Tex.Crim.App.1995).
Contrary to the Magistrate Judge's findings, the record does
not support the conclusion that Petitioner’s trial counsel
failed to request a lesser-included instruction for “strategic
reason." Instead, the record shows only that trial counsel
misunderstood Texas law with regard to being entitled to a
lesser-included instruction.
The Magistrate Judge suggests that Petitoner's trial counsel fail­
ed to ask for a lesser-included instruction for "strategic reasons."
In fact

the record makes it clear that trial counsel did not request

such an instruction because he incorrectly believed the defense was
not entitlted to one under Texas law. Indeed, in his affidavit sub­
mitted to the State habeas court, trial counsel explained: "I do not
believe we were entitled to a lesser-included charge of sexual assault
unless there was some evidence that the offense occured." See (D.E.
33

32-1) Exhibit "E-l" at 4. He then goes on to claim that no such evi­
dence existed because "Mr. Shakouri would not admit [the sexual assault] occured and neither did anybody else." Id.
A. Strategy Cannot Be Based Upon A Misunderstanding Of The Law.
From trial counsel's affidavit, it is clear that counsel believed
that Petitioner was required to "admit" the underlying sexual assault
in order to be entitled to a lesser-included instruction on sexual ass­
ault. That belief demonstrate a fundamental misunderstanding of Texas
law. Moreover, it is clear that a decision based bn a misunderstand­
ing of Texas law cannot be excused as "trial strategy."
For example, in Richards v. Quarterman, 366 F. 3d 553, 569 (5th
Cir. 2009), the Fifth Circuit upheld the grant of habeas relief where
it appeared from trial counsel's affidavit that he did not request a
lesser-included instruction because he "misunderstood the law governing lesser-included offense." See also, e.g. United States v. Span,
75 F. 3d 1383, 1387 (9th Cir. 1996)("A trial attorney's failure to
request jury instruction receives no deference, however, when it is
based on a misunderstanding of the law__ "); White v. Ryan, 895 F. 3d
641, 666 (9th Cir. 2018)("A decision based on a misunderstanding of
the law is not sound trial strategy."); Vinyard v. United States

804

F. 3d 1218, 1225 (7th Cir. 2015)("A strategic choice based on a mis­
understanding of law or fact, however, can amount to ineffective ass­
istance."); Hardwick v. Crosby, 320 F. 3d 1127 (11th Cir. 2003)("A
tactical or strategic decision is unreasonable if it is on a failure
to understand the law.").
The legion of above cases are consistent with clearly decided
Supreme Court law. See Wiggins v. Smith, 539 U.S. 510, 526 (2003)
34

(findings ineffective assistance when counsel's "failure to investi
gate thoroughly resulted from inattention, not reason strategic judg­
ment"); Strickland v. Washington, 466 U.S. 668, 690 ("Strategic"
choices must be "made after thorough investigation of law and facts".).
B. The Harm Analysis Employed By The Magistrate Judge In Reaching Her
Conclusion is Contrary To The Harm Analysis Required By The United
States Sureme Court.
As noted above, the Magistrate Judge found that Petitioner did
not demonstrate any prejudice as a result of trial counsel's failure
to request the lesser-included instruction because there was "no evi­
dence to demonstrate that had the jury been giventhe instruction, it
would have chosen to convict him of the lesser-included offense."
RR at 17. Indeed, at first blush, it could be said that the failure of
trial counsel to request a lesser-included instruction cannot be harmful given that, if the jury did not believe the greater offense had
taken place and only believed the lesser offense had taken place
jury would have acquitted defendant. Nevertheless

the

it is clear this is

not the law.
For example

in Breakiron, the defendant had argued in a post­

conviction motion following his state court conviction that trial
counsel was ineffective for failing to request a jury instruction on
theft

which is a lesser-included offense in the charge of robbery.

This argument was rejected by the state habeas court under the theory
that the jury necessarily rejected an argument that the defendant was
only guilty of theft when it convicted him of robbery and, thus, be­
cause the court believed the evidence was legally sufficient on the
robbery charge it was not likely that the jury would have returned a
35

verdict only on the theft charge. Breakiron, 642 F. 3d at 139.
The Third Ciruit Gourt of Appeals found that the resolution of the
case by the state habeas court was unreasonable in light of Supreme
Court precedent in Beck:
Without a theft instruction, the jury was left

with only two

choices-conviction of robbery or outright acquital.In such allor-nothing situations, "where one of the elements of the offense
charged remains in doubt, but the defendant is plainly guilty of
some offense, the jury is likely to resolve its doubt in favor
of conviction." Beck, 447 U.S. at 634 (quoting Keeble.412 U.S.
at 212-13.) Thus even though juries are obligated "as a theo­
retical matter" to acquit if they do not find every element of
a crime there is a 'substantial risk that the jury's practice
will diverge from theory" when it is not presented with the op­
tion of convicting of a lesser offense instead of acquiting out­
right. Id. (quoting Keeble, 412 U.S. at 212-213, 93 S.Ct.
By conceding theft but not requesting a theft instruction, Breakiron's counsel exposed him to that "substantial risk," and the
record reveals that he had no strategic reason for doing so.
For the reasons set forth above, the decision of the district
court involved an unreasonable application of clearly established
federal law and unreasonable determination of fact. The Court failed
to consider that (1) trial counsel's misunderstanding of the law satis-,
fies the deficiency prong of Strickland; and (2) its findings on this
issue is fundamentaly inconsistence with the requirements of Fed.R.
Crim.Proc. Rule 31(c)(1), and this Court's clearly established prece­
dents. See Petitioner's objections to the Magistrate Judge's Report
and Recommendation, Exhibit "E".

36

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Shahram Shakouri

Date:

October 1, 2021

37

